1a
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
--------------------------------------------------------------------------------------------------------------------------------

JOHN R. PINDER,
Petitioner-Appellant,
v.
SCOTT CROWTHER,

No. 19-4039
(D.C. No. 2:16-CV00189-DN)
(D. Utah)

Respondent-Appellee.
--------------------------------------------------------------------------------------------------------------------------------

ORDER DENYING CERTIFICATE
OF APPEALABILITY*
--------------------------------------------------------------------------------------------------------------------------------

(Filed Feb. 11, 2020)
Before HARTZ, HOLMES, and MORITZ, Circuit
Judges.
--------------------------------------------------------------------------------------------------------------------------------

John R. Pinder, a Utah state prisoner, seeks a certificate of appealability (COA) to challenge the district
court’s denial of four grounds for relief set forth in his
28 U.S.C. § 2254 habeas petition. We deny a COA and
dismiss this matter.

* This order is not binding precedent, except under the doctrines of law of the case, res judicata, and collateral estoppel. It
may be cited, however, for its persuasive value consistent with
Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.

2a

I.

Background

We take the following factual recitation from the
opinion of the Utah Supreme Court (USC) affirming
the denial of Mr. Pinder’s petition for post-conviction
relief, which, as the USC noted, “is presented in a light
favorable to the prosecution, and consistent with the
judgment of conviction,” Pinder v. State, 367 P.3d 968,
969 n.1 (Utah 2015) (Pinder II):
John Pinder owned a sprawling ostrich
ranch in Duchesne County. He and his ranchhand, Filomeno Ruiz, were accused (and ultimately convicted) of murdering June Flood
and Rex Tanner. Flood and Tanner also
worked on Pinder’s ranch.
According to the evidence at trial, Ruiz
staged a fight with his girlfriend, Mandy Harris, on the day of the alleged murder[1]. The
purpose of the staged fight was to get Harris
away from the ranch. Ruiz called 911 during
this staged altercation. Harris left after the
police showed up. And the 911 call was recorded by the local dispatch.
That evening, Pinder, his girlfriend Barbara DeHart, Ruiz, and Pinder’s employees
Joe Wallen and David Brunyer (along with
Brunyer’s wife) gathered around a campfire to
drink. At some point the conversation turned
1

Whether the murders were committed on Saturday, October 24, 1998, or Sunday, October 25, 1998, is at issue in one of the
grounds on which Mr. Pinder seeks a COA.

3a
to the “shrunken heads” that Pinder and
DeHart had seen at a curiosity shop in Seattle. Eventually Pinder spoke of his hopes to
someday acquire one. Pinder said to Ruiz,
“let’s go get some heads.” Ruiz responded with
a question: “four or two?” Pinder replied,
“two.”
After grabbing a baseball bat, Pinder and
Ruiz drove to the home where Flood and Tanner resided. Pinder violently assaulted Flood
and Tanner, kidnapped them, and then shot
them both with a 10 mm pistol. Pinder and
Ruiz then left the murder scene and later returned with ammonium nitrate and dynamite, packed the bodies with the explosives,
and set them off.
Pinder later got others to help him hide
the remains. Following a day of bulldozing the
blast site, Pinder and Ruiz dropped several
black garbage bags of body parts into a barrel
and set them ablaze. Pinder, DeHart, and Ruiz
then met with the Brunyers for dinner, after
which Pinder and Ruiz returned to the lake to
collect more parts for burning.
Tuesday morning, at Pinder’s behest,
Ruiz and Brunyer went to the Flood home
armed with a bottle of alcohol and some rags
to remove fingerprints and tidy up. After returning, Brunyer complained about the smell
of the Flood residence, to which Pinder
quipped, “That’s because Tanner shit his
pants when I shot him.” Pinder, Ruiz, and
Brunyer then spent the day bulldozing and

4a
gathering more body parts for disposal. After
coming across Tanner’s wrist watch, Pinder
callously joked that it must have been a
Timex, because “it was still ticking.” Eventually the bulldozer ran out of gas. And when
they went to get more, Brunyer asked Pinder
why he killed Flood and Tanner, to which
Pinder replied, “They were liars, thieves and
maggots, and now they’re vaporized no one
will miss them anyway.” Upon arriving home
that evening, Brunyer’s daughter could see he
was upset. He recounted the gruesome tale to
his daughter. She took notes and then taped
them to the inside of her dresser drawer after
having Brunyer read over and approve them.
By Thursday, October 29th, Pinder and
DeHart had left the state, eventually arriving
in Cataldo, Idaho. That Sunday, DeHart contacted her daughter Melissa Cowles and told
her that over the last couple of days Pinder
“had admitted to killing some people on the
ranch”; that they had been “cleaning up the
evidence”; that she had found “a bag of what
looked like bloody hair and scalp” in Pinder’s
truck, which she then threw away; and that
they had “thrown the murder weapon off a
bridge and into the river.” DeHart had said
they were “like Bonnie and Clyde, always on
the run.” That same day DeHart called her father, Bernie Knapp, and told him “she helped
clean blood and mess out of John Pinder’s
truck,” that “they had some bloody clothing
and items in bags that they had tossed in
dumpsters in little towns on the way up on
their trip,” and that they “either had gotten

5a
rid of a gun or were in the process of getting
rid of a gun.”
Meanwhile, back at the ranch, an investigation was underway. One of Flood’s friends
reported her missing, and police officers
searched the Flood residence. Police discovered the home in utter disarray, with blood on
the bed sheets and the backrest of a chair in
the living room. They also found a pair of excrement-stained pants in the bathroom. After
leaving the home, the investigating officer
saw and approached Brunyer, who was standing nearby. Brunyer appeared “very agitated,
very nervous, and scared to death,” but
handed the officer the letter his daughter had
written and the bottle of alcohol with which
he had assisted in cleaning up the home.
Pinder and DeHart arrived back in Salt
Lake on November 4th. On that day they decided to appear on KSL News for a television
interview about the murders. Shortly thereafter, Pinder, Ruiz, and DeHart were all arrested. Investigators later searched Pinder’s
ranch and found a gruesome assortment of
the victims’ remains strewn about the area,
stuck in bushes, and hanging from trees. They
also searched Pinder’s truck and found a 10
mm shell casing, one of the victim’s thumbprints on the inside of a window, and some
bloodstains (one identified as Pinder’s, the
other unidentified). Police also determined
that the rear windows had been wiped down
and cleaned, as well as the mid-section of the
door jam.

6a
Ruiz pled guilty to two counts of murder.
He denied being the shooter, accusing Pinder
instead. DeHart was charged with and later
convicted of obstruction of justice. State v.
DeHart, 2001 UT App 12, 17 P.3d 1171. And
Pinder was charged with two counts of aggravated murder, two counts of aggravated kidnapping, two counts of tampering with
evidence, one count of burglary of a dwelling,
one count of possession of explosives, and two
counts of desecration of a body.
While being held in the Summit County
Jail before his preliminary hearing, Pinder
met an inmate named Newly [sic2] Welch.
Pinder bragged to Welch about killing Tanner
and Flood and blowing up their bodies. He told
Welch that the day of the murders, he and
Ruiz staged a fight with Ruiz’s girlfriend to
get her off of the ranch. Welch then asked
Pinder what it was like to kill someone. And
in response, Pinder put his hand on Welch’s
shoulder and said, “There’s no bigger rush, especially when you know you’re going to get
away with it.” Pinder was convicted on all
counts and sentenced to life with the possibility of parole on the aggravated murder
charges, and to consecutive statutory terms
on the other counts.
Pinder II, 367 P.3d at 969-71 (paragraph numbers,
footnote, brackets, and ellipses omitted).

2

At trial, Mr. Welch spelled his first name “Newley.”

7a
After his convictions, Mr. Pinder filed a motion for
a new trial. The trial court denied the motion, and the
USC affirmed, see State v. Pinder, 114 P.3d 551 (Utah
2005) (Pinder I). As noted, the USC later affirmed the
denial of Mr. Pinder’s petition for post-conviction relief
(PPCR).
Mr. Pinder then filed a petition for habeas corpus
in federal district court pursuant to 28 U.S.C. § 2254.
The district court denied relief on all seven grounds
and denied a COA. In this court, Mr. Pinder has filed a
Combined Opening Brief and Application for a Certificate of Appealability (COA Application), seeking a
COA on four grounds, some of which the district court
denied for procedural reasons and others the court denied on the merits.
II.

Standard of review

To appeal the denial of a § 2254 petition, a petitioner must first obtain a COA. See 28 U.S.C.
§ 2253(c)(1)(A). To obtain a COA on claims the district
court denied on the merits, a petitioner must make “a
substantial showing of the denial of a constitutional
right,” § 2253(c)(2), such “that reasonable jurists could
debate whether . . . the petition should have been resolved in a different manner or that the issues presented were adequate to deserve encouragement to
proceed further,” Slack v. McDaniel, 529 U.S. 473, 484
(2000) (internal quotation marks omitted). For claims
the district court denied on a procedural ground without reaching the merits, the petitioner must show “that

8a
jurists of reason would find it debatable whether the
petition states a valid claim of the denial of a constitutional right and . . . whether the district court was correct in its procedural ruling.” Id. “Each component of
[this] showing is part of a threshold inquiry.” Id. at 485.
Thus, if a petitioner cannot make a showing on the procedural issue, we need not address the constitutional
component. See id. “The COA inquiry . . . is not coextensive with a merits analysis,” Buck v. Davis, 137
S. Ct. 759, 773 (2017), and is limited to “an overview of
the claims in the habeas petition and a general assessment of their merits,” Miller-El v. Cockrell, 537 U.S.
322, 336 (2003).
Because Mr. Pinder filed his § 2254 petition after
the effective date of the Antiterrorism and Effective
Death Penalty Act of 1996 (AEDPA), it is governed by
AEDPA’s provisions. See Wallace v. Ward, 191 F.3d
1235, 1240 (10th Cir. 1999). Under AEDPA, our consideration of Mr. Pinder’s request for a COA must incorporate “AEDPA’s deferential treatment of state court
decisions.” Dockins v. Hines, 374 F.3d 935, 938 (10th
Cir. 2004). We therefore “look to the District Court’s application of AEDPA to [Mr. Pinder’s] constitutional
claims and ask whether that resolution was debatable
among jurists of reason.” Miller-El, 537 U.S. at 336. To
that end, we must keep in mind that when a state court
has adjudicated the merits of a claim, a federal court
may grant habeas relief only if that state court decision
“was contrary to, or involved an unreasonable application of, clearly established Federal law, as determined
by the Supreme Court of the United States,” 28 U.S.C.

9a
§ 2254(d)(1), or “was based on an unreasonable determination of the facts in light of the evidence presented
in the State court proceeding,” § 2254(d)(2). But
AEDPA’s deferential standards of review do not apply
if a “state court employed the wrong legal standard in
deciding the merits of [a] federal issue.” Cargle v.
Mullin, 317 F.3d 1196, 1202 (10th Cir. 2003). In that
case, rather than deferring to the state court’s resolution of the issue, a federal court reviews the issue de
novo to determine whether habeas relief is warranted.
Milton v. Miller, 744 F.3d 660, 670-71 (10th Cir. 2014).
III.

Discussion

A. Grounds one and two
Grounds one and two of Mr. Pinder’s § 2254 petition concern due-process claims he advanced in his
PPCR. In ground one, Mr. Pinder claimed the State
used doctored 911 tapes of the calls regarding the fight
between Mr. Ruiz and his girlfriend that changed the
date of the calls from October 24 to October 25, 1998.
The State did not introduce the audio from the tape at
trial, but the log of the 911 calls established a baseline
date of October 25 for the fight and the murders.3 Various witnesses, including Mr. Pinder and his girlfriend,
Ms. DeHart—who had earlier testified in her
3

Mr. Pinder’s record citation for this point shows that his
own trial attorney, not the State, presented the logs when crossexamining Ms. DeHart. See Trial R., R1780 Jury Trial Vol. 13 at
129-31. The state-court records were filed in this court on a compact disc. Our references to those records are to the names of the
folders and files as set forth on that disc.

10a
obstruction trial that the fight occurred on October
24—then keyed their testimony to that baseline date.
Mr. Pinder claimed the date mattered because he had
an alibi for October 24—he was at home on the ranch
with Ms. DeHart. He presented affidavits from experts
that the 911 recordings were not pristine but, prior to
his trial, had been tampered with and altered by exporting and editing data, which was then recorded
back onto the tape. The experts stopped short of concluding the date of the 911 calls had been changed to
October 25.
In ground two of his § 2254 petition, Mr. Pinder
claimed the State presented false testimony at trial
from Newley Welch that while he and Mr. Pinder were
incarcerated together, Mr. Pinder confessed he had
shot the victims and blew up their bodies. Mr. Pinder
provided the post-trial court an affidavit from a private
investigator who interviewed Mr. Welch in 2002 and
reported that, contrary to his trial testimony, Mr. Welch
stated that “John Pinder did not tell him that Pinder
had shot or beaten Rex Tanner and June Flood.” PostConviction Record (PCR), R269-1 at 39. The investigator also reported that Mr. Welch said “he would not testify in court regarding his admissions that he lied on
the stand during John Pinder’s trial . . . [until] he was
released from probation.” Id. at 38-39.
1. State court rulings
In affirming the denial of post-conviction relief on
these claims, the USC relied solely on procedural

11a
default, reasoning that the claims could have been but
were not raised “’at trial or on appeal,’ ” as required by
Utah Code Ann. § 78B-9-106(1)(c). Pinder II, 367 P.3d
at 976 (quoting § 78B-9-106(1)(c)). The court rejected
Mr. Pinder’s argument that the statutory term “at
trial” did not include claims that could only have been
brought in a post-trial motion prior to an appeal. Id. at
976-77. The court instead construed the term “at trial”
as “encompass[ing] all claims that could have been
raised in the trial court,” including a post-trial motion.
Id. at 976-77.
The USC next rejected Mr. Pinder’s argument that
he could not have brought these claims at trial or in
his new-trial motion “because they came to light too
late.” Id. at 977. The USC reasoned that Pinder knew
of the grounds for asserting these claims “at the time of
trial, and accordingly [they] could have been brought
then or in his post-trial motion.” Id. at 977 (emphasis
added) (internal quotation marks omitted). “At most,”
the court said, Mr. Pinder had belatedly identified only
“additional evidence supporting [the claims],” which
was “insufficient to avoid the procedural bar.” Id. In a
concluding statement, the court summarized its holding: “Pinder could have asserted his due process claims
[regarding the 911 tapes and Welch’s alleged perjury]
at trial (or on a post-trial motion).” Id. at 980 (emphasis added).

12a
2. District court ruling
In his § 2254 proceedings, Mr. Pinder argued that
to the extent the USC concluded that § 78B-9106(c)(1)’s term “at trial” extended beyond the actual
trial period, the procedural rule was novel and therefore inadequate to bar presentation of these claims in
his new-trial motion. See Walker v. Martin, 562 U.S.
307, 316 (2011) (“To qualify as an ‘adequate’ procedural
ground, a state rule must be firmly established and
regularly followed.” (internal quotation marks omitted)). In the alternative, Mr. Pinder asked the district
court to excuse the procedural default based on the
cause-and-prejudice and fundamental-miscarriage-ofjustice exceptions.
The district court enforced the procedural default.
The court explained that despite interpreting the term
“at trial” to include post-trial motions, the USC found
that the 911-tape and Welch-perjury claims could have
been raised “during the actual trial.” Aplt. App. at 240.
Accordingly, the district court did not address Mr.
Pinder’s novelty argument.
The district court also declined to excuse the procedural default. The court characterized Mr. Pinder’s
excuse arguments as “hinging on ‘newly discovered evidence,’ so the exception [to procedural default] Pinder
relies on is essentially that of fundamental miscarriage of justice or actual innocence.” Id. The court determined that none of Pinder’s evidence was new
(which is a requirement for a showing of actual innocence, see House v. Bell, 547 U.S. 518, 536-37 (2006)),

13a
because he merely rehashed all the evidence and alleged civil-rights violations that formed “every claim
that he brought before the Utah Supreme Court and in
this petition, [and] re-argued [them] as grounds for a
finding of actual innocence.” Aplt. App. at 241. The
court did not separately address Pinder’s cause-andprejudice arguments.
3. COA analysis
In his COA Application, Mr. Pinder repeats his
novelty argument but fails to address the district
court’s explanation that the USC’s application of procedural default rested independently on the view that
he could have brought these claims at his actual criminal trial (as opposed to in his new-trial motion). But
reasonable jurists could not debate the district court’s
analysis, and the issue does not deserve encouragement to proceed further. Even if it was novel for the
USC to interpret the statutory term “at trial” as including new-trial motions, the USC also based its procedural-default determination on the non-novel portion
of the statute—that Mr. Pinder could have raised his
claims during the actual criminal trial. The two bases
were independent, and Mr. Pinder has not argued that
the non-novel portion of the statute was inadequate.
Mr. Pinder attempts to overcome his procedural
default of grounds one and two through a showing of
cause and prejudice.4 See Fairchild v. Workman, 579
4

Mr. Pinder does not raise a fundamental-miscarriage-ofjustice argument in his COA Application.

14a
F.3d 1134, 1141 (10th Cir. 2009). We will address each
ground separately. But before doing so, we note that in
his § 2254 petition, Mr. Pinder failed to specify the precise constitutional basis for grounds one and two, asserting them as due process claims generally, but citing
no case law. In ground one, he alleged the State “provided the defense with false and perjured evidence,”
namely, an altered 911 tape. Aplt. App. at 25. And in
ground two, he alleged the State presented “false, perjured testimony of [a] jailhouse informant, Newly [sic]
Welch.” Id. at 33. When discussing these grounds in his
reply to the State’s response to his petition, Mr. Pinder
referred numerous times to both Napue v. Illinois, 360
U.S. 264, 269-70 (1959), which requires the prosecution
to correct a witness’s statement they know is false, and
Brady v. Maryland, 373 U.S. 83, 87 (1963), which requires the prosecution to disclose material exculpatory
evidence.
His framing of these claims in his state-court filings was also mixed. For its part, the USC apparently
treated them as Napue claims. See Pinder II, 367 P.3d
at 977 (“Pinder asserts that Welch perjured himself at
trial and that the State knowingly presented that perjured testimony.” (emphasis added)); id. at 978
(“Pinder’s second due process claim . . . is rooted in the
allegation that the State knowingly presented doctored
911 tapes[.]” (emphasis added)).
We need not definitively resolve whether these are
Brady or Napue claims (or both), because Mr. Pinder
has not established his entitlement to a COA on them

15a
under either construct. With this understanding, we
proceed with our analysis.
a. 911 tape
“Cause for a procedural default can exist when
some objective factor external to the defense impeded
counsel’s efforts to comply with the State’s procedural
rule.” Scott v. Mullin, 303 F.3d 1222, 1228 (10th Cir.
2002) (internal quotation marks omitted). One such
“objective factor external to the defense” is a “State’s
failure to disclose . . . information.” Id. at 1230. Mr.
Pinder alleges that is the case here—the State failed
to disclose that the 911 tapes had been altered.5
No reasonable jurist could agree with Mr. Pinder.
The USC’s discussion of why Mr. Pinder could have
presented the 911-tape claim at his criminal trial is instructive. The USC stated that Mr. Pinder failed to
identify any “clear ground for his assertion that [the
911-tape] claim could not have been presented at trial
or on a post-trial motion.” Pinder II, 367 P.3d at 979.
The court noted that his only argument why he could
not have presented this claim at trial or in a post-trial
motion was that “at some point [the defense team] decided that the only way to have a valid claim was to see
if there was an alteration of the tapes.” Id. (brackets,
ellipsis, and internal quotation marks omitted). The
court considered this as nothing more than an assertion that counsel did not decide to investigate the
5

For purposes of argument, we may assume the tapes were
altered and the prosecution knew or should have known about it.

16a
matter until the post-conviction phase and reasoned
that “[t]he same basis for the investigation by postconviction counsel was as readily available to trial
counsel.” Id. The court further observed that “Pinder
had ample grounds for pursuing an investigation into
the date of the staged fight and subsequent 911 recording at the time of trial,” specifically, conflicting testimony Ms. DeHart gave at her obstruction trial
(October 24) and at Mr. Pinder’s trial (October 25). Id.
(emphasis added). Moreover, Mr. Pinder “had every
motivation and opportunity to [pursue an investigation] at the time of trial.” Id. Although trial counsel
“did not have the results of the expert analysis during
the trial and post-trial proceedings,” the USC said
“they had everything else, and the additional evidence
provided by the expert[s’] nebulous conclusions is insufficient in this context to undermine the conclusion
that this claim ‘could have’ been brought earlier.” Id.
(footnote omitted). The “nebulous” quality of the experts’ conclusions the court referred to was the fact the
experts did not assert “that the date was altered in the
911 tapes” but “only that the recordings on both days
had been altered in some fashion.” Id. at 979 n.17.
We agree with this line of reasoning as it relates
to cause for procedural default. Any failure by the
State to disclose that the tapes had been altered did
not prevent Mr. Pinder from raising this claim at trial
given that (1) he knew Ms. DeHart previously identified, at her obstruction trial, the date of the fight as
October 24; (2) the date was of extreme importance to
Mr. Pinder because he claimed he had an alibi for the

17a
24th; and (3) trial counsel had the same basis for investigating the tapes as post-conviction counsel. During his criminal trial, therefore, Mr. Pinder could have
raised an issue about the date established by the tape
logs even without the experts’ analyses of the tapes.
Accordingly, he fails to establish the cause prong of the
cause-and-prejudice exception to procedural default.
That alone is sufficient to enforce the procedural default. See Klein v. Neal, 45 F.3d 1395, 1400 (10th Cir.
1995) (“The ‘cause and prejudice’ exception is conjunctive, requiring proof of both cause and prejudice.”). We
therefore deny a COA on ground one.
b. Welch perjury
Mr. Pinder questions the USC’s determination
that he could have raised his Welch-perjury claim at
trial or in a post-trial motion. According to Mr. Pinder,
he could not have raised this claim earlier because he
did not know about the claim’s factual basis, which he
characterizes as Mr. Welch’s admission to the private
investigator that he lied about Mr. Pinder’s confession
to the murders, until well after he filed his new-trial
motion. He argues that prior to obtaining evidence that
Mr. Welch perjured himself, he only had a “belief that
[Mr. Welch was] not telling the truth” and that was insufficient “to formally allege that [Mr. Welch] committed perjury.” COA Appl. at 33-34.
Whether Mr. Pinder could have made a plausible,
formal allegation of perjury at trial is not the issue; his
claim arises under either Napue or Brady. We begin

18a
with Napue and assume, for purposes of argument,
that Mr. Pinder could not have brought a Napue claim
at trial or in his new-trial motion. But he still fails to
show that the refusal to consider this claim on the
ground of procedural default would result in prejudice.
The investigator’s affidavit says nothing about the
State’s knowledge of Mr. Welch’s alleged perjury. And
actual knowledge is an element of a Napue claim. See
United States v. Garcia, 793 F.3d 1194, 1207 (10th Cir.
2015) (“A Napue violation occurs when (1) a government witness committed perjury, (2) the prosecution
knew the testimony to be false, and (3) the testimony
was material.” (emphasis added)).6 The USC pointed
this out when it enforced the procedural default. See
Pinder II, 367 P.3d at 978 (explaining that the investigator’s affidavit said “nothing about the key element of
the State’s knowledge of Welch’s alleged perjury at the
time of trial—as there is no indication that the State
was aware of the contents of the [investigator’s] affidavit at the time it presented the Welch testimony at
trial”). Thus, had the USC actually entertained the
merits of this claim, it is clear Mr. Pinder would not
6

Relying on Garcia, Mr. Pinder contends that in this circuit,
to prove a Napue claim, “a petitioner must prove the prosecutor
knew or should have known of the falsity.” COA Appl. at 37 (emphasis added). This contention rests on a clear misreading of Garcia and conflates Napue and Brady. Indeed, we have recently (and
again) rejected the approach Mr. Pinder suggests, where a Napue
claim would lie even when “the government unwittingly elicits
false testimony.” Farrar v. Raemisch, 924 F.3d 1126, 1132 (10th
Cir. 2019). We have instead hewed to the approach detailed in
Garcia and numerous earlier Tenth Circuit cases. See id. at 1132
& nn.7 & 8.

19a
have prevailed under a Napue theory.7 And although
the state post-conviction court never ruled on a motion
for discovery Mr. Pinder filed to, as he now puts it, “find
out exactly what law enforcement knew,” COA Appl. at
30 n.6, Mr. Pinder develops no argument that the postconviction court constitutionally erred in doing so or
that the USC committed constitutional error in finding
no abuse of discretion in the effective denial of the discovery motion, see Pinder II, 367 P.3d at 980-81. For
these reasons, we deny a COA on ground two to the
extent it is based on Napue.
Construed as a Brady claim, Mr. Pinder fares no
better, as he cannot establish cause for his failure to
bring a Brady claim at trial or in his new-trial motion.
A Brady claim has three components: (1) “evidence . . .
favorable to the accused”; (2) “suppress[ion] by the
State, either willfully or inadvertently”; and (3) ensuing “prejudice.” Strickler v. Greene, 527 U.S. 263,
281-82 (1999). Suppression of relevant evidence is tantamount to cause for procedural default of a Brady
claim. See id. at 282 (explaining that cause can “parallel” the suppression component).
Mr. Pinder has not identified any relevant evidence the State suppressed. The evidence on which he
bases his claim is the investigator’s affidavit, which the
State could not have suppressed because Mr. Pinder’s
own investigator developed it for Mr. Pinder’s use.
7

To the extent the USC’s statement could be construed as a
ruling on the merits, we would conclude that reasonable jurists
could not debate that the USC reasonably applied Napue.

20a
Moreover, Mr. Pinder’s argument that the State should
have known of the perjury and, presumably, disclosed
that “fact” to Mr. Pinder at trial rests only on the many
grounds the USC identified as trial evidence that Mr.
Welch was lying, see Pinder II, 367 P.3d at 978 n.15.
Because those same grounds were equally evident to
Mr. Pinder at trial, there was no suppression. See
United States v. Erickson, 561 F.3d 1150, 1163 (10th
Cir. 2009) (explaining that under Brady, “a defendant
is not denied due process by the government’s nondisclosure of evidence if the defendant knew of the evidence anyway.”). Even more fundamentally, Mr. Pinder
knew better than anyone whether Mr. Welch was lying
because the testimony concerned a matter squarely
within Mr. Pinder’s knowledge—his confession to Mr.
Welch. For these reasons, there was no suppression
and therefore no cause for the procedural default. Accordingly, we deny a COA on ground two to the extent
it is based on Brady.
B. Ground three and Ruiz portion of ground
four
Ground three of Mr. Pinder’s § 2254 petition involved a Brady claim he raised in his motion for a new
trial, asserting the State suppressed material evidence
concerning Mr. Ruiz’s (1) alleged involvement in the
prior, unrelated kidnapping and murder of Todd Skidmore and (2) alleged drug-dealing membership in the
Mexican Mafia. Ground four concerned two separate
Brady issues: The State failed to disclose exculpatory

21a
evidence regarding plea agreements with Mr. Ruiz and
Mr. Brunyer.
Like the district court, we address the Ruiz portion of ground four together with ground three, and
discuss the Brunyer portion of ground four separately.
The trial court denied relief on the merits of these
claims. The USC affirmed, also on the merits. See
Pinder I, 114 P.3d at 558-60.
In ruling on ground three of the § 2254 petition
and the Ruiz portion of ground four, the district court
began by noting that “Pinder’s arguments are fatally
flawed by their cursory nature and failure to analyze
issues under the federal habeas standard of review”
and by his failure to “refer to any caselaw at all, let
alone the controlling case, Brady. For each issue,
Pinder merely lists evidence with his spin on it.” Aplt.
App. at 244. The court concluded that nonetheless, the
USC “selected the correct governing legal principle
with which to analyze these alleged evidentiary suppression issues: Brady and its progeny.” Id. at 244-45
(citation omitted). The district court noted that, unlike
Mr. Pinder, it had “thoroughly evaluated whether the
Utah Supreme Court reasonably applied Brady as to
Ruiz’s involvement in the Skidmore murder” and concluded that “[t]the Utah Supreme Court reasonably
applied Brady, particularly lacking any substantive
argument by Pinder to the contrary. Pinder has utterly
failed to meet his burden under the federal standard
of review here.” Id. at 246.

22a
Mr. Pinder finds “odd” the district court’s observation that he failed to analyze this issue under the
AEDPA standard, and he notes that in reply to the
State’s assertion of AEDPA “as a defense in its Response, he responded [in his § 2254 reply] with a 37page legal argument explaining why that standard did
not apply.” COA Appl. at 52 n.10 (emphasis added).
However, we read the district court’s decision as declining to consider the substantive arguments in Mr.
Pinder’s § 2254 reply because they came too late. See
Sierra Club v. Okla. Gas & Elec. Co., 816 F.3d 666, 676
n.9 (10th Cir. 2016) (“We generally do not consider arguments raised for the first time in a reply brief.”). And
contrary to Mr. Pinder’s argument, “AEDPA’s standard
of review is not a procedural defense, but a standard of
general applicability for all petitions filed by state prisoners after the statute’s effective date presenting
claims that have been adjudicated on the merits by a
state court.” Gardner v. Galetka, 568 F.3d 862, 879
(10th Cir. 2009) (ellipsis and internal quotation marks
omitted). It was therefore Mr. Pinder’s obligation to explain to the district court in his § 2254 petition why
AEDPA did not apply. Waiting until his § 2254 reply
was too late. And the failure to “raise [an] issue at the
appropriate time” in the district court “waive[s] appellate review.” Impact Energy Res., LLC v. Salazar, 693
F.3d 1239, 1246 n.3 (10th Cir. 2012).
Accordingly, we will not consider any of the arguments in the COA Application regarding the USC’s rulings on the merits of these grounds because they were
all first broached in the § 2254 reply. And nothing in

23a
the USC’s analysis strikes us as being an unreasonable
application of Brady. Consequently, reasonable jurists
could not debate that it was within the district court’s
discretion to deny relief on ground three and the Ruiz
portion of ground four without consideration of the
specific arguments Mr. Pinder raised in his § 2254 reply, and the issue does not deserve encouragement to
proceed further. We therefore deny a COA on ground
three and the Ruiz portion of ground four.
C. Brunyer portion of ground four
Mr. Pinder attempted to raise the Brunyer portion
of ground four in a motion to amend the PPCR. He alleged the State failed to disclose the full terms of its
agreement with Mr. Brunyer to obtain his testimony at
Mr. Pinder’s trial, specifically “that Brunyer received
promises including an offer of probation in exchange
for his testimony.” PCR, R629-270 at 622. The only
“good cause” he identified for allowing the amendment
was that he had discovered the basis of the claim only
after the State filed its response to his PPCR. Id. The
post-conviction court denied the motion without explanation, and the USC affirmed. The USC ruled that, despite the lack of explanation, the trial court did not
abuse its discretion in denying the motion to amend
because the reason was evident: Mr. Pinder filed the
motion four years after he had filed his PPCR and a
full year after the State had filed a motion for summary judgment in the post-conviction proceeding.
Pinder II, 367 P.3d at 980. The USC reasoned that

24a
“Pinder had plenty of time to discover the facts purportedly meriting an amendment.” Id.
In his § 2254 petition, Mr. Pinder summarily argued that the state courts denied his Brunyer claim on
“a new rule of procedural default,” and therefore the
district court owed no AEDPA deference in ruling on
the merits. Aplt. App. at 45. He then discussed the merits, relying on the affidavit of Melissa Cowles that she
believed the prosecution offered Mr. Brunyer a plea
deal in exchange for his testimony. Mr. Pinder claimed
the existence of a plea deal with Mr. Brunyer and “the
offer of payment of monies to him in exchange for his
testimony” was not disclosed to the defense, and had
the jury heard of these things, it is reasonably probable
it would not have convicted Mr. Pinder. Id. In response,
the State argued that Mr. Pinder failed to acknowledge
the procedural problem with this claim and failed to
offer any excuse for his delay in raising it in the postconviction proceeding. Mr. Pinder replied that
§ 2254(d) did not bar review because the state courts
never adjudicated the claim on the merits. In the alternative, he summarily asserted that his default could
be excused by either the cause-and-prejudice or fundamental-miscarriage-of-justice exceptions, although he
developed no argument on either exception.
In a footnote, the district court concluded that
“[p]rocedural default also applies to Pinder’s argument
that information about Brunyer’s potential plea deal
was suppressed à la Brady. See Pinder [II], [367 P.3d
at 980] ¶ 61.” Aplt. App. at 249 n.3.

25a
In his COA Application, Mr. Pinder makes no argument that the state court applied a new rule of procedural default, but argues only that cause and
prejudice excuses any default:
The state court’s application of the procedural bar should be excused because the state
did not disclose its offer to Brunyer, and thus,
there is cause and prejudice for any default.
See, pgs. 25-27, above [where, in relevant part,
he argued that the failure to disclose the allegedly altered 911 tapes constituted cause].
Brunyer provided the sole testimony corroborating Ruiz’s version of the cleanup and
the failure to disclose the prosecution agreement with Brunyer warrants relief under the
de novo standard of review.
COA Appl. at 57.
These conclusory arguments are unconvincing.
First, Mr. Pinder does not even allege that Mr. Brunyer
accepted any offer that may have been made in Ms.
Cowles’s presence. And Ms. Cowles’s affidavit does not
establish that the State entered into an agreement
with Mr. Brunyer. Ms. Cowles said that while she was
waiting to testify, she was in a room with Mr. Brunyer,
the prosecutor, and others. She continued: “One of the
men handed Brunyer a document that was about 3
pages long. I heard them say the word ‘testimony’ and
also heard them talking with Brunyer about ‘probation,’ but I can’t recall the exact conversation or words.
I believed then, and believe now, that Brunyer was

26a
being offered a deal for hi[s] testimony.” PCR R629-270
at 619-20 (some internal quotation marks omitted).
This falls far short of demonstrating that Mr.
Brunyer accepted a deal in exchange for his testimony.
Lacking that, there was nothing for the State to disclose to Mr. Pinder under Brady, so Mr. Pinder cannot
establish cause for his delay in broaching the claim in
the post-conviction proceeding. Furthermore, Mr.
Pinder fails to establish a debatable argument that if
Ms. Cowles’s testimony had been presented at trial,
there is a reasonable probability that Mr. Pinder would
not have been convicted of the murders. See Banks v.
Dretke, 540 U.S. 668, 691 (2004) (reiterating rule that
prejudice in the context of a defaulted Brady claim “exists when the suppressed evidence is material for
Brady purposes” (internal quotation marks omitted));
Garcia, 793 F.3d at 1207 (explaining that materiality
under Brady requires showing “a reasonable probability that the result of the proceeding would have been
different had the evidence been disclosed” (internal
quotation marks omitted)). Accordingly, Mr. Pinder has
not met his burden to show that reasonable jurists
could debate whether the Brunyer portion of ground
four should have been considered on the merits by the
state court or the federal district court, or that the issue deserves encouragement to proceed further. We
therefore deny a COA on the Brunyer portion of
ground four.

27a
IV.

Conclusion

For the foregoing reasons, we deny Mr. Pinder’s
COA Application and dismiss this matter.
Entered for the Court
Jerome A. Holmes
Circuit Judge

28a
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

IN THE UNITED STATES DISTRICT COURT
DISTRICT OF UTAH
JOHN R. PINDER,
Petitioner,
v.
SCOTT CROWTHER,
Respondent.

MEMORANDUM
DECISION & ORDER
DENYING HABEASCORPUS PETITION
(Filed March 6, 2019)
Case No. 2:16-CV-189-DN
District Judge
David Nuffer

In this federal habeas-corpus case, inmate John R.
Pinder, attacks his state conviction. 28 U.S.C.S. § 2254
(2018). Having carefully considered all relevant documents and law, the Court concludes that three of
Pinder’s claims are procedurally defaulted. And, on the
remaining claims, Pinder does not overcome the federal habeas standard of review. The Court therefore denies the petition with prejudice.
BACKGROUND
A portion of the background is quoted from a Utah
Supreme Court opinion:
Pinder owned a sprawling ostrich ranch in
Duchesne County. He and his ranch-hand,
Filomeno Ruiz, were accused (and ultimately
convicted) of murdering June Flood and Rex

29a
Tanner. Flood and Tanner also worked on
Pinder’s ranch.
According to the evidence at trial, Ruiz staged
a fight with his girlfriend, Mandy Harris, on
the day of the alleged murder. The purpose of
the staged fight was to get Harris away from
the ranch. Ruiz called 911 during this staged
altercation. Harris left after the police showed
up. And the 911 call was recorded by the local
dispatch.
That evening, Pinder, his girlfriend Barbara
DeHart, Ruiz, and Pinder’s employees Joe
Wallen and David Brunyer (along with
Brunyer’s wife) gathered around a campfire to
drink. At some point the conversation turned
to the “shrunken heads” that Pinder and
DeHart had seen at a curiosity shop in Seattle. Eventually Pinder spoke of his hopes to
someday acquire one. Pinder said to Ruiz,
“let’s go get some heads.” Ruiz responded with
a question: “four or two?” Pinder replied,
“two.”
After grabbing a baseball bat, Pinder and
Ruiz drove to the home where Flood and Tanner resided. Pinder violently assaulted Flood
and Tanner, kidnapped them, and then shot
them both with a 10 mm pistol. Pinder and
Ruiz then left the murder scene and later returned with ammonium nitrate and dynamite, packed the bodies with the explosives,
and set them off.
Pinder later got others to help him hide the
remains. Following a day of bulldozing the

30a
blast site, Pinder and Ruiz dropped several
black garbage bags of body parts into a barrel
and set them ablaze. Pinder, DeHart, and Ruiz
then met with the Brunyers for dinner, after
which Pinder and Ruiz returned to the lake to
collect more parts for burning.
Tuesday morning, at Pinder’s behest, Ruiz
and Brunyer went to the Flood home armed
with a bottle of alcohol and some rags to remove fingerprints and tidy up. After returning, Brunyer complained about the smell of
the Flood residence, to which Pinder quipped,
“[T]hat’s because [Tanner] shit his pants
when I shot him.” Pinder, Ruiz, and Brunyer
then spent the day bulldozing and gathering
more body parts for disposal. . . .
By Thursday, October 29th, Pinder and
DeHart had left the state, eventually arriving
in Cataldo, Idaho. . . .
Meanwhile, back at the ranch, an investigation was underway. One of Flood’s friends reported her missing, and police officers
searched the Flood residence. Police discovered the home in utter disarray, with blood on
the bed sheets and the backrest of a chair in
the living room. They also found a pair of excrement-stained pants in the bathroom. After
leaving the home, the investigating officer
saw and approached Brunyer, who was standing nearby. Brunyer appeared “[v]ery agitated, very nervous, [and] scared to death." . . .
Pinder and DeHart arrived back in Salt Lake
on November 4th. On that day they decided to

31a
appear on KSL News for a television interview about the murders. Shortly thereafter,
Pinder, Ruiz, and DeHart were all arrested.
Investigators later searched Pinder’s ranch
and found a gruesome assortment of the victims’ remains strewn about the area, stuck in
bushes, and hanging from trees. They also
searched Pinder’s truck and found a 10 mm
shell casing, one of the victim’s thumbprints
on the inside of a window, and some bloodstains (one identified as Pinder’s, the other
unidentified). Police also determined that the
rear windows had been wiped down and
cleaned, as well as the mid-section of the door
jam.
Ruiz pled guilty to two counts of murder. He
denied being the shooter, accusing Pinder instead. DeHart was charged with and later
convicted of obstruction of justice. State v.
DeHart, 2001 UT App 12. And Pinder was
charged with two counts of aggravated murder, two counts of aggravated kidnapping, two
counts of tampering with evidence, one count
of burglary of a dwelling, one count of possession of explosives, and two counts of desecration of a body.
While being held in the Summit County Jail
before his preliminary hearing, Pinder met an
inmate named Newly Welch. Pinder bragged
to Welch about killing Tanner and Flood and
blowing up their bodies. He told Welch that
the day of the murders, he and Ruiz staged a
fight with Ruiz’s girlfriend to get her off of the
ranch. Welch then asked Pinder what it was

32a
like to kill someone. And in response, Pinder
put his hand on Welch’s shoulder and said,
“[T]here’s no bigger rush[,] especially when
you know you’re going to get away with it.”
Pinder was convicted on all counts and sentenced to life with the possibility of parole on
the aggravated murder charges, and to consecutive statutory terms on the other counts.
Pinder filed a motion for a new trial. For various reasons, the motion took two years to resolve. During the eventual evidentiary
hearing on the new trial motion, Pinder presented several newly discovered witnesses –
Joey Silva (an inmate who allegedly spent
time with Ruiz), Robert Brunyer (David
Brunyer’s brother), and Kristy Barnes. Each
of these witnesses testified, in one way or another, that Ruiz and David Brunyer were actually the killers. The district court found
none of the new witnesses credible; indeed,
the court expressly found each of them to be
seriously lacking in trustworthiness and accordingly denied the motion. Pinder appealed,
and we unanimously affirmed his conviction.
State v. Pinder, 2005 UT 15.
Pinder filed this petition for post-conviction
relief in 2006. He presented two main theories
of relief. First, he claimed that newly discovered evidence would exonerate him. Pinder
brought affidavits from two more inmates
who had spent time with Ruiz while incarcerated: Beau Heaps and Danny Alvarez. The Alvarez affidavit stated that while in the
Duchesne County Jail, Ruiz told Alvarez that

33a
he and a “gavacho” committed the murders
but that Pinder had “nothing to do with it.”
The Heaps affidavit stated that Heaps met
Ruiz at the Utah State Prison and that Ruiz
similarly told him that Ruiz and another man
– not Pinder – were the murderers.
Pinder’s second claim was based on the allegation that the State had violated his due process rights by knowingly presenting perjured
testimony from Welch and by falsifying evidence concerning the 911 recording of the
fight between Ruiz and Harris. To support his
claims regarding Welch, Pinder provided an
affidavit from a defense investigator who
claimed that Welch admitted to lying on the
stand but that he would not testify regarding
his own perjury until “he was released from
probation.” With respect to the 911 tapes,
Pinder submitted lengthy expert analyses of
the 911 recordings of the Ruiz/Harris “fight.”
This analysis concluded that the 911 call recordings from the days of October the 24th
and 25th were “not pristine,” had in some way
been “altered” and “tampered with by exporting and editing,” and that these files could not
“be deemed reliable.” Based on these expert
reports, Pinder concluded that: (1) the police
had altered the recordings of the 911 call to
make the Ruiz/Harris fight appear to have
happened on Sunday the 25th rather than on
Saturday the 24th; and (2) the State then used
this fabricated date as a “baseline” in order to
coax witnesses at trial to believe that all the
events happened on Sunday rather than Saturday.

34a
Discovery lasted three years, largely because
of a drawn out battle over disqualification of
the district court judge. During this time, both
Ruiz and Alvarez were deposed. In 2009, at
the close of discovery, the State moved for
summary judgment on several grounds. The
State first addressed the newly discovered evidence claims, arguing that they “could . . .
have been discovered through the exercise of
reasonable diligence,” Utah Code Ann. § 78B9-104(1)(e)(i) (2018), were merely cumulative
of other evidence, were merely for impeachment, and in any event would not have
changed the outcome of trial. Turning to the
due process claims, the State first invoked the
procedural bar limitations in the PCRA. Id.
§ 78B-9-106(1)(c). It argued that the due process claims “could have been but [were] not
raised at trial or on appeal,” or during Pinder’s
new trial motion. Id. Next, the State argued
that Pinder failed to establish that the State
“knew or had reason to believe Welch’s testimony was false.” Over a year later, Pinder
filed a response, a motion to amend the petition, and a motion for additional discovery.
The district court granted summary judgment
[for] the State. It first held, with respect to
new evidence, (1) Pinder failed to show that
the Heaps and Alvarez testimony could not
have been discovered by the exercise of reasonable diligence, (2) the evidence was merely
cumulative and merely for impeachment, and
(3) even if the evidence were considered, it did
not establish that the newly discovered evidence would make it impossible for a

35a
reasonable jury to render a guilty verdict.
Turning to the due process claims, the court
dismissed them both as procedurally barred
because they could have been brought “during
Pinder’s motion for a new trial or on appeal.”
The court also ruled on the merits of both the
Welch claim and the 911 claim, holding that
Pinder had failed to shoulder his burden of
showing that the State knew or should have
known that both the Welch testimony and the
911 tapes were false. The court never expressly addressed Pinder’s motion for additional discovery. But it effectively denied the
motion by granting the State’s motion for
summary judgment. As for the motion to
amend, the court denied it in its order granting summary judgment, but without explaining its reasons for doing so.
Pinder v. State, 2015 UT 56, ¶¶ 4-19.
Pinder timely appealed, asserting two sets of
claims for relief: (1) He presented newly discovered evidence of witnesses Alvarez and Heaps, apparently to
show Pinder’s innocence. Id. ¶ 2. (2) He asserted that
the State violated his due-process rights by knowingly
adducing at trial perjured testimony and fabricated evidence. Id. The supreme court rejected the first claim
on the merits and the second set of claims as procedurally defaulted.

36a
PINDER’S ASSERTED GROUNDS
FOR FEDERAL-HABEAS RELIEF
Pinder asserts several grounds for federal habeas
relief:
(I) The State violated Pinder’s due-process
rights by (A) falsifying 911 recordings to show
the murder occurred on October 25, not October 24, 1998; and (B) presenting Newly
Welch’s perjured false testimony.
(II) The State violated Brady v Maryland,
373 U.S. 83 (1963), by not disclosing exculpatory evidence regarding (A) main prosecution
witness Ruiz; (B) Ruiz and Brunyer’s plea
deals; and (C) patterns of police misconduct.
(III) Newly discovered evidence was not
properly considered as to (A) Ruiz admissions
(i.e., potential witnesses Alvarez, Heaps, and
witness Silva); (B) Brunyer admissions (i.e.,
witnesses Barnes, Robert Brunyer, and potential witnesses, James and Leann Hill, and
Moellmer).
(IV)

Cumulative error.
ANALYSIS

I.

PROCEDURAL DEFAULT BARS SOME
GROUNDS FOR RELIEF
Grounds (I)(A) and (B) are procedurally defaulted.

“[I]f Petitioner failed to comply with a state procedural requirement for bringing . . . claim[s], there is a

37a
. . . bar to federal review, namely procedural default.”
Parkhurst v. Shillinger, 128 F.3d 1366, 1370 (10th Cir.
1997); see also Coleman v. Thompson, 501 U.S. 722, 750
(1991) (holding, when federal claim defaulted in state
court on independent and adequate state procedural
basis, federal review of claim barred unless cause for
default and actual prejudice shown). Because Pinder
could have but did not raise his claims regarding the
911 recording and Welch’s testimony “at trial or on appeal,” Pinder, 2015 UT 56, ¶ 38 (quoting Utah Code
Ann. § 78B-9-106(1)(c) (2018)), the Utah Supreme
Court deemed those issues procedurally defaulted and
declined to analyze them on their merits. Id.
Pinder argues that the procedural default in state
court was not based on an independent and adequate
state rule. “To be independent, the procedural ground
must be based solely on state law.” Thacker v. Workman, 678 F.3d 820, 835 (10th Cir. 2012). “To be adequate, the procedural ground ‘must be strictly or
regularly followed and applied evenhandedly to all
similar claims.’ ” Id. (quoting Sherrill v. Hargett, 184
F.3d 1172, 1174 (10th Cir. 1999)).
In concluding that these two of Pinder’s claims
were procedurally defaulted, the Utah Supreme Court
explicitly discussed and applied the provisions of
Utah’s Post-Conviction Remedies Act, Utah Code Ann.
§ 17B-9-101 through -405 (2018), and its strict limitations on post-conviction-relief petitions by inmates
who could have raised their issues earlier but did not.
See id. § 78B-9-106(1)(c) (“A person is not eligible for
relief under this chapter upon any ground that . . .

38a
could have been but was not raised at trial or on appeal. . . .”); Thacker, 678 F.3d at 835. “Thus, there is
simply no doubt that the [Utah Supreme Court’s] ruling rested exclusively on [Utah] state law.” Thacker,
678 F.3d at 835.
Pinder also contends that the state procedural
ground upon which the Utah Supreme Court relied
was inadequate because it was a “new” procedural
ground and therefore could not have been regularly
and evenly applied in the past. However, the procedural ground that the Utah Supreme Court relied
upon was the time-tested and well-worn ground that
an applicant for post-conviction relief is ineligible for
relief upon any ground that was not raised at trial or
on appeal. Ross v. State, 2012 UT 93, ¶ 25; Johnson v.
State, 2011 UT 59, ¶¶ 6, 9; Schwenke v. State, 2012 UT
App 18, ¶ 5; Rynhart v. State, 2011 UT App 6, ¶¶ 2-5;
Pedockie v. State, No. 20100372-CA, 2010 Utah App.
LEXIS 299, at *1 (Utah Ct. App. Oct. 28, 2010) (per curiam); Underwood v. State, 2010 UT App 129, ¶¶ 3-5
(per curiam); Kissell v. State, 2010 UT App 123, ¶¶ 2-3;
Zampedri v. State, 2009 UT App 302, ¶ 4 (per curiam);
Meinhard v. Turley, 2009 UT App 150, ¶ 3 (per curiam);
Fleming v. State, 2008 UT App 407, ¶¶ 2-3 (per curiam). In fact, the Court could not find a case – and
Pinder has not pointed toward any case – in which this
ground has not been applied when relevant in the
Utah appellate courts.
The part of the Utah Supreme Court’s analysis
that Pinder contends is “new” (and therefore not regularly and evenly applied in the past) is the idea that

39a
“raised at trial” includes a post-trial motion in the trial
court. But that was not even necessarily what the court
was relying on in concluding the procedural bar applied. The court apparently believed that Pinder had
enough information about these two claims to assert
them during his actual trial. As to Welch’s testimony,
the court said, “[T]he defense had plenty of grounds for
this assertion [that Welch perjured himself ] at trial.”
Pinder, 2015 UT 56, ¶ 48. And when it said “at trial,”
in this context, it meant when Welch testified, not in
the post-trial period before appeal. See id. Meanwhile,
as to the assertedly doctored-911 tapes, the Court
noted, “Pinder offers no clear ground for his assertion
that this claim could not have been presented at
trial. . . .” Id. ¶ 53. Again, “at trial” meant the time
when the murder date was being discussed in trial proceedings, not in the post-trial period before appeal. See
id. And the Court need not address the alleged newness of this adequate state procedural basis for default.
The procedural bar here hinged on an independent
and adequate state ground.
B.

Actual-Innocence Exception

Pinder may overcome procedural default, but only
by showing “cause for the default and actual prejudice
as a result of the alleged violation of federal law, or . . .
that failure to consider the claims will result in a fundamental miscarriage of justice.” Coleman, 501 U.S. at
750. His arguments appear to hinge on “newly

40a
discovered evidence,” so the exception Pinder relies on
is essentially that of fundamental miscarriage of justice or actual innocence. Pinder’s arguments under this
heading re-argue for the most part every one of his
claims in this petition – all having been rejected by the
Utah Supreme Court. Pinder, 2015 UT 56; State v.
Pinder, 2005 UT 15. Evidence of actual innocence proffered must meet all three criteria: (1) new, (2) reliable,
and (3) so probative and compelling that no reasonable
juror could find guilt. See Schlup v. Delo, 513 U.S. 298,
324-29 (1995). Requirement one is not met here. All the
newly discovered evidence Pinder raises is essentially
every claim that he brought before the Utah Supreme
Court and in this petition, re-argued as grounds for a
finding of actual innocence here.
There is no new evidence. Petitioner’s mere rehashing of evidence and alleged civil-rights violations
do not show that the exception applies. Indeed, the kernel of the analysis of actual innocence is not whether
Petitioner urgently believes errors existed – or
whether error indeed existed – in state proceedings,
but whether Petitioner is factually innocent. Actual innocence must also be supported by new evidence,
which Petitioner has not provided.
The first two grounds in the petition – the prosecution’s violation of Pinder’s due-process rights
through falsified 911 recordings and introduction of
Welch’s perjured, falsified testimony – are denied because of procedural default.

41a
II.

MERITS ANALYSIS

Pinder argues that the prosecution violated his
constitutional rights under Brady by not disclosing exculpatory evidence. He also contends that the Utah
courts did not properly consider “new evidence” argued
in his defense after his trial. These claims are denied
on their merits.
A.

Standard of Review

The standard of review to be applied in federal habeas cases is found in § 2254, under which this habeas
petition is filed. It states:
(d) An application for a writ of habeas corpus on behalf of a person in custody pursuant
to the judgment of a State court shall not be
granted with respect to any claim that was adjudicated on the merits in State court proceedings unless the adjudication of the claim –
(1) resulted in a decision that was contrary
to, or involved an unreasonable application of,
clearly established Federal law, as determined
by the Supreme Court of the United States; or
(2) resulted in a decision that was based on
an unreasonable determination of the facts in
light of the evidence presented in the State
court proceeding.
28 U.S.C.S. § 2254(d) (2018). Subsection (d)(1) governs
claims of legal error while subsection (d)(2) governs
claims of factual error.” House v Hatch, 527 F.3d 1010,
1015 (10th Cir. 2008).

42a
The inquiry includes whether Utah Supreme
Court’s rejection of Pinder’s claims “was contrary to, or
involved an unreasonable application of, clearly established Federal law.” 28 U.S.C.S. § 2254(d)(1) (2018).
This “ ‘highly deferential standard,’ ” Cullen v. Pinholster, 563 U.S. 170, 181 (2011) (citation omitted); see Littlejohn v. Trammell, 704 F.3d 817, 824 (10th Cir. 2013),
is “ ‘difficult to meet,’ because [the statute’s] purpose is
to ensure that federal habeas relief functions as a
‘guard against extreme malfunctions in the state criminal justice systems,’ and not as a means of error correction.” Greene v. Fisher, 565 U.S. 34, 38 (2011)
(quoting Harrington v. Richter, 562 U.S. 86, 102-103
(2011) (citation omitted)). This court is not to determine whether the Utah Supreme Court’s decisions
were correct or whether a different outcome might
have been reached. See Lockyer v. Andrade, 538 U.S. 63,
75-76 (2003). “The role of federal habeas proceedings,
while important in assuring that constitutional rights
are observed, is secondary and limited.” Barefoot v. Estelle, 463 U.S. 880, 887 (1983). And, “[t]he petitioner
carries the burden of proof.” Cullen, 563 U.S. at 181.
Under Carey v. Musladin, 549 U.S. 70 (2006), the
first step is determining whether clearly established
federal law exists relevant to Pinder’s claims. House,
527 F.3d at 1017-18; see also Littlejohn, 704 F.3d at 825.
Only after answering that “threshold question” affirmatively does the issue arise “whether the state court
decision is either contrary to or an unreasonable application of such law.” Id. at 1018.

43a
[C]learly established [federal] law consists of
Supreme Court holdings in cases where the
facts are at least closely-related or similar to
the case sub judice. Although the legal rule at
issue need not have had its genesis in the
closely-related or similar factual context, the
Supreme Court must have expressly extended
the legal rule to that context.
Id. at 1016.
Further, “in ascertaining the contours of clearly established law, we must look to the ‘holdings as opposed
to the dicta, of [the U.S. Supreme] Court’s decisions as
of the time of the relevant state-court decision.’ ” Littlejohn, 704 F.3d at 825 (quoting Yarborough v. Alvarado, 541 U.S. 652, 660-61 (2004) (emphasis added)
(citations omitted)). And, a court deciding a federal habeas claim is not restricted by the state court’s analysis
whendeciding whether relevant clearly established
federal law exists. See Bell v. Cone, 543 U.S. 447, 455
(2005) (“[F]ederal courts are not free to presume that
a state court did not comply with constitutional dictates on the basis of nothing more than a lack of citation.”); Mitchell v. Esparza, 540 U.S. 12, 16 (2003) (“[A]
state court need not even be aware of our precedents,
‘so long as neither the reasoning nor the result of the
state-court decision contradicts them.’ ”) (citation omitted).
If that threshold is overcome, habeas relief may be
granted only when the state court has “unreasonably
applied the governing legal principle to the facts of the
petitioner’s case.” Walker v. Gibson, 228 F.3d 1217,

44a
1225 (10th Cir. 2000) (citing Williams v. Taylor, 529
U.S. 362, 412-13 (2000)). This deferential standard
does not let a federal court issue a writ of habeas corpus merely because it determines on its own that the
state-court decision erroneously applied clearly established federal law. See id. “ ‘Rather that application
must also be unreasonable.’ ” Id. (quoting Williams,
529 U.S. at 411). Indeed, “ ‘an unreasonable application
of federal law is different from an incorrect application
of federal law.’ ” Harrington, 562 U.S. at 100 (emphasis
in original) (quoting Williams, 529 U.S. at 410).
This highly demanding standard means to pose a
sizable obstacle to habeas petitioners. Id. at 786. Section 2254(d) “stops short of imposing a complete bar on
federal court relitigation of claims already rejected in
state proceedings.” Id. It maintains power to issue the
writ when no possibility exists that “fairminded jurists
could disagree that the state court’s decision conflicts
with th[e Supreme] Court’s precedents. It goes no farther.” Id. To prevail in federal court, “a state prisoner
must show that the state court’s ruling on the claim
being presented in federal court was so lacking in justification that there was an error well understood and
comprehended in existing law beyond any possibility
for fairminded disagreement.” Id. at 786-87. It is
against this backdrop that the standard of review will
be applied to this case’s circumstances.

45a
B.

Brady Violations

Pinder’s arguments about the prosecution’s alleged failure to disclose exculpatory evidence to his defense are based on: (1) Ruiz’s involvement in the
“Skidmore murder,” drug dealing, and “Mexican Mafia”; (2) Ruiz and Brunyer’s1 plea-deal terms; and (3)
extensive police misconduct in Uintah Basin. Pinder’s
arguments are fatally flawed by their cursory nature
and failure to analyze issues under the federal habeas
standard of review. Beneath each heading to the three
categories of “exculpatory evidence,” Pinder merely
states, “The state court’s denial of this claim was contrary to and an unreasonable application of clearly established federal law, 28 U.SC. § 2254(d)(1), and an
unreasonable determination of the facts. 28 U.S.C.
§ 2254(d)(2).” (Pet., Doc. No. 1, at 41, 44, 47.) Most damaging to his cause, Pinder’s arguments do not refer to
any caselaw at all, let alone the controlling case, Brady.
For each issue, Pinder merely lists evidence with his
spin on it. This does not even begin to meet his burden
to show that the Utah Supreme Court applied the
wrong United States Supreme Court precedent and/or
unreasonably applied that precedent.
Remembering that review is tightly restricted by
the federal habeas standard of review, this Court observes that Utah Supreme Court selected the correct
governing legal principle with which to analyze these
alleged evidentiary suppression issues: Brady, 373 U.S.
83 and its progeny. Pinder, 2005 UT 15, ¶ 22. Unlike
1

Addressed later in footnote three.

46a
Pinder, the supreme court took care to set forth Brady’s
requirements in several paragraphs:
In Brady, the United States Supreme Court
held “that the suppression by the prosecution
of evidence favorable to an accused upon request violates due process where the evidence
is material either to guilt or punishment, irrespective of the good faith or bad faith of the
prosecution.” Id. at 87. The Supreme Court
later expanded this principle by placing a
duty on the prosecution to disclose material
evidence favorable to a defendant even in the
absence of a request by the accused. United
States v. Agurs, 427 U.S. 97, 107 (1976). The
duty to disclose applies to substantive as well
as impeachment evidence. United States v.
Bagley, 473 U.S. 667, 676 (1985).
When claiming that the prosecution’s failure
to disclose evidence requires a new trial, the
Supreme Court has stated that a defendant
must show the following: “The evidence at issue must be favorable to the accused, either
because it is exculpatory, or because it is impeaching; that evidence must have been suppressed by the State, either willfully or
inadvertently; and prejudice must have ensued.” Strickler v. Greene, 527 U.S. 263, 281-82
(1999). Consistent with this standard, we
have declared that a Brady violation “occurs
only where the state suppresses information
that (1) remains unknown to the defense both
before and throughout trial and (2) is material
and exculpatory, meaning its disclosure would
have created a ‘reasonable probability’ that

47a
‘the result of the proceeding would have been
different.’ ” State v. Bisner, 2001 UT 99, ¶ 33
(quoting Bagley, 473 U.S. at 682).
Explaining the Brady inquiry announced in
Bisner, we noted that “courts universally refuse to overturn convictions where the evidence at issue is known to the defense prior to
or during trial, where the defendant reasonably should have known of the evidence, or
where the defense had the opportunity to use
the evidence to its advantage during trial but
failed to do so.” Id.; see also United States v.
Aichele, 941 F.2d 761, 764 (9th Cir. 1991)
(“When . . . a defendant has enough information to be able to ascertain the supposed
[Brady] material on his own, there is no suppression by the government.”); United States
v. Pandozzi, 878 F.2d 1526, 1529 (1st Cir. 1989)
(concluding that Brady is not violated when
the defense could have obtained the information “with any reasonable diligence” (internal quotation omitted)); United States v.
Davis, 787 F.2d 1501, 1505 (11th Cir. 1986)
(the Brady “rule does not apply if the evidence
in question is available to the defendant from
other sources”).
Further, as the second component of the Bisner test makes clear, the evidence in question
must be material, such that a different result
on retrial is reasonably probable. 2001 UT 99
at ¶ 33. It is important to note, however, that
the Brady materiality standard is not identical to a sufficiency of evidence review. See
Kyles v. Whitley, 514 U.S. 419, 434 (1995)

48a
(explaining that the Brady materiality analysis “is not a sufficiency of evidence test”). Rather, a reviewing court must look at the
suppressed evidence and determine whether,
taken cumulatively, the absence of the suppressed evidence at trial undermines confidence in the fairness of the proceeding. See id.
at 434-35. As a result, “the question is not
whether the defendant would more likely
than not have received a different verdict with
the evidence, but whether in its absence he received a fair trial, understood as a trial resulting in a verdict worthy of confidence.” Id. at
434.
Id. ¶¶ 23-26. The Court’s review of Brady and its progeny reveals that the Utah Supreme Court accurately
set forth the law here.
As required by the standard of review – which
Pinder ignored by providing no analysis – this opinion
has thoroughly evaluated whether Utah Supreme
Court reasonably applied Brady as to Ruiz’s involvement in the Skidmore murder, id. ¶¶ 28-33; Ruiz’s plea
negotiations, id. ¶¶ 38-42; and police corruption in the
Uintah Basin, id. ¶¶ 34-37. Within several paragraphs
under each heading, the Utah Supreme Court set forth
Brady’s requirements and carefully applied them to
the type of evidence allegedly not disclosed. The Utah
Supreme Court reasonably applied Brady, particularly
lacking any substantive argument by Pinder to the
contrary. Pinder has utterly failed to meet his burden
under the federal standard of review here.

49a
C.

“New Evidence”

Pinder contends that specific testimony should
have been – but was not – accepted as new evidence
warranting a new trial, including testimony offered by
Silva, Robert Brunyer, Moellmer, Barnes, and the Hills
(assessed on direct appeal) and Alvarez and Heaps (assessed on appeal from post-conviction application).
Pinder, 2015 UT 56, ¶¶ 25-36; Pinder, 2005 UT 15,
¶¶ 64-90. He attacks the Utah Supreme Court’s rejection of this “new evidence” as
a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as determined by the Supreme Court of the United States; or . . . a
decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the State court proceeding.
28 U.S.C.S. § 2254(d) (2018). But Pinder gives mere lip
service to the federal habeas standard of review, stating it but providing no analysis using it.
First, the state Pinder opinions did not analyze the
new-evidence issues under the Federal Constitution,
but under state-law standards. It is well-settled that a
federal court may grant habeas relief only for violations of the Constitution or laws of the United States.
Estelle v. McGuire, 502 U.S. 62, 68 (1991); Rose v.
Hodges, 423 U.S. 19, 21 (1975). Errors of state law are
not a basis for relief. Estelle, 502 U.S. at 67; Lewis v.
Jeffers, 497 U.S. 764, 780 (1990). Petitioner thus has no
valid argument here.

50a
Second, to the degree that Pinder challenges the
state courts’ factual findings, he overlooks the controlling statute’s further guidance as to state-court factual
findings:
In a proceeding instituted by an application
for a writ of habeas corpus by a person in custody pursuant to the judgment of a State
court, a determination of a factual issue made
by a State court shall be presumed to be correct. The applicant shall have the burden of
rebutting the presumption of correctness by
clear and convincing evidence.
28 U.S.C.S. § 2254(e)(1) (2018).
Under the statute, the the correctness of all statecourt factual findings about purportedly new evidence
is presumed. This includes state court findings that the
Hills’ offered testimony “was available or known to
Pinder before the conclusion of trial,” Pinder, 2005 UT
15, ¶ 72; Moellmer’s offered testimony could have been
uncovered by trial’s end by “a reasonably diligent
search,” id. ¶ 740; as witnesses, Robert Brunyer’s and
Barnes’s “credibility was highly suspect and not entitled to any significant weight” that could have had “a
strong enough impact on a jury to make a different result on retrial probable,” id. ¶ 78; “ ‘it is difficult to conceive of a less trustworthy witness’ than Silva,” id.
¶ 86; and, while the Heaps-and-Alvarez-offered testimony “adds something to Pinder’s theory that Ruiz
was the one who shot Flood and Tanner, a reasonable
jury would still be well within its prerogative to convict
Pinder based on the evidence it had before it” and thus

51a
it did not trigger a new trial,2 Pinder, 2015 UT 56, ¶ 36.
Pinder’s mere repetition of all his past arguments does
not meet the “clear and convincing evidence” threshhold the standard of review requires. “In light of the
record as a whole, [the Court] conclude[s] that
[Pinder’s] argument on this point doesn’t entitle him to
relief under § 2254(d)(2)’s ‘daunting standard.’ ” Vreeland v. Zupan, 906 F.3d 866, 881 (10th Cir. 2018) (citations omitted).
D.

Cumulative Error

“In the federal habeas context, a cumulative-error
analysis aggregates all constitutional errors found to
be harmless and analyzes whether their cumulative effect on the outcome of the trial is such that collectively
they can no longer be determined to be harmless.” Cole
v. Trammell, 755 F.3d 1142, 1177 (10th Cir. 2014) (quoting Alverson v. Workman, 595 F.3d 1142, 1162 (10th
Cir. 2010)). “The cumulative-error analysis applies
where there are two or more actual errors. It does not
apply, however, to the cumulative effect of non-errors.”
Smith, 824 F.3d at 1255 (quoting United States v.
Franklin-El, 555 F.3d 1115, 1128 (10th Cir. 2009)).
There are not errors here, so the cumulative-error doctrine does not apply.

2

This last “finding” could be termed a legal conclusion; however, as a legal conclusion it would fall under the category of a
state-law determination that this Court will not review. See Estelle, 502 U.S. at 67

52a
CONCLUSION
Pinder’s claims are either procedurally defaulted3
or do not pass muster under the federal habeas standard of review.
IT IS THEREFORE ORDERED that the petition
for writ of habeas corpus is DENIED and the action
DISMISSED WITH PREJUDICE.
IT IS ALSO ORDERED that a certificate of appealability is DENIED.
This action is CLOSED.
BY THE COURT
/s/ David Nuffer
JUDGE DAVID NUFFER
United States District Court

3

Procedural default also applies to Pinder’s argument that
information about Brunyer’s potential plea deal was suppressed
à la Brady. See Pinder, 2015 UT 56, ¶ 61.

53a
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

IN THE UNITED STATES DISTRICT COURT
DISTRICT OF UTAH
JOHN R. PINDER,
Petitioner,

JUDGEMENT IN A
CIVIL CASE
Case No. 2:16-CV-189-DN

v.
SCOTT CROWTHER,

District Judge
David Nuffer

Respondent.
IT IS ORDERED AND ADJUDGED
that Petitioner’s action is dismissed with prejudice
because it fails to state a claim upon which relief may
be granted.
DATED this 6th day of March, 2019.
BY THE COURT
/s/ David Nuffer
JUDGE DAVID NUFFER
United States District Court

54a
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
---------------------------------------------------------------------------------------------

JOHN R. PINDER,
Petitioner – Appellant,
v.
SCOTT CROWTHER,

No. 19-4039
(D.C. No. 2:16-CV00189-DN)
(D. Utah)

Respondent – Appellee.
---------------------------------------------------------------------------------------------

ORDER
---------------------------------------------------------------------------------------------

(Filed Apr. 6, 2020)
Before HARTZ, HOLMES, and MORITZ, Circuit
Judges.
Appellant’s petition for rehearing is denied.
The petition for rehearing en banc was transmitted to all of the judges of the court who are in regular
active service. As no member of the panel and no judge
in regular active service on the court requested that
the court be polled, that petition is also denied.
Entered for the Court
/s/ [Illegible]
CHRISTOPHER M. WOLPERT, Clerk

